No. 20-1013

In the Supreme Court of the United States
__________________

CLARENCE J. SIMON, JR.,
Petitioner,
v.
DIRECTOR, OFFICE OF WORKERS’ COMPENSATION
PROGRAMS, UNITED STATES DEPARTMENT OF LABOR,
LONGNECKER PROPERTIES, INC., AND SEABRIGHT
INSURANCE COMPANY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

BRIEF IN OPPOSITION FOR RESPONDENTS
LONGNECKER PROPERTIES, INC. AND
SEABRIGHT INSURANCE COMPANY
__________________
Henry H. LeBas
Counsel of Record
LeBas Law Offices APLC
2 Flagg Place, Suite 1
Lafayette, LA 70508
337-236-5500
hlebas@lebaslaw.com
Counsel for Respondents,
Longnecker Properties, Inc. and
SeaBright Insurance Company
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
THE QUESTION PROPERLY PRESENTED
The compromise section of 33 U.S.C. Section 933(g)
states that a Longshore worker forfeits the right to
benefits by settling a third party tort claim without the
prior written approval of the employer and workers’
compensation carrier. The question presented is
whether a writ should be granted when the lower
courts properly applied 933(g) to bar petitioner’s claims
for benefits as a result of his settlement with the third
party, Tri-Drill, without the prior written consent of his
employer and its workers’ compensation carrier.

ii
CORPORATE DISCLOSURE STATEMENT
Longnecker Properties, LLC is a privately-held
corporation with no parent company and no ownership
by any publicly traded company.
Clarendon National Insurance Company (“CNIC”)
is the successor in interest to SeaBright Insurance
Company with respect to the insurance policy issued to
Longnecker Properties. CNIC is wholly owned by
Enstar Holdings (US) LLC, which is wholly owned by
Enstar USA, Inc. Enstar USA, Inc. is wholly owned by
Enstar (Asia-Pac) Holdings Limited, which is wholly
owned by Kenmare Holdings Ltd. Kenmare Holdings
Ltd. is wholly owned by Enstar Group Limited, the
shares of which are publicly traded on the NASDAQ
exchange.

iii
TABLE OF CONTENTS
THE QUESTION PROPERLY PRESENTED . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
REASONS FOR DENYING CERTIORARI . . . . . . . 3
I. NO FACTUAL DISPUTE EXISTS AS TO THE
EXISTENCE OF A SETTLEMENT AND THE
APPLICABILITY OF 33 U.S.C. 933(g) . . . . . . . . 3
II. THE COURT OF APPEALS DECISION DOES
NOT CONFLICT WITH THIS COURT’S
DECISIONS OR DECISIONS OF OTHER
CIRCUITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
TABLE OF AUTHORITIES
CASES
Bethlehem Steel Corp. v. Mobley,
920 F.2d 558 (9th Cir. 1990). . . . . . . . . . . 5, 6, 7, 8
Hale v. Bae Systems,
801 Fed. Appx. 600 (9th Cir. 2020) . . . . . 9, 10, 11
Mallott & Peterson v. Dir. OWCP,
98 F.3d 1170 (9th Cir. 1996). . . . . . . . . . . . . . . . . 8
Mijangos v. Avondale Shipyards, Inc.,
948 F.2d 941 (5th Cir. 1991). . . . . . . . . . . . . . . . . 3
Nicklos Drilling Co. v. Cowart,
907 F.2d 1552 (5th Cir. 1990). . . . . . . . . . . . . 5, 10
O’Neil v. Bunge Corp.,
365 F.3d 820, 38 BRB 57 (CRT)
(9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
Price v. Stevedoring Service of America,
697 F.3d 820 (9th Cir. 2012). . . . . . . . . . . . . . . . . 8
Simon v. Longnecker Properties,
No. 12-1178, 2015 WL 9482899
(W.D. LA. December 28, 2015) . . . . . . . . . . . . . . . 4
STATUTES
33 U.S.C. § 921(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . 3
33 U.S.C. § 933(g). . . . . . . . . . . . . . . . . . . . . . . passim

1
INTRODUCTION
The Petition for Writ of Certiorari rehashes
arguments that have been made and rejected six
times – by the U.S. District Court for the Western
District of Louisiana, by the USDOL Administrative
Law Judge (twice), by the Benefits Review Board, and
by the U.S. Fifth Circuit Court of Appeal (twice). If we
count petitions for rehearing, this matter has been
briefed eight times in the lower courts, and each time
the arguments of Petitioner have been properly and
soundly rejected. This, his ninth and final attempt,
should be rejected just the same. Petitioner incorrectly
claims that there is a conflict in the circuits, when in
fact there is none. Petitioner incorrectly claims that
there was no valid settlement of the third party claim
to trigger 33(g), when in fact there was one. He
incorrectly phrases the questions presented and
improperly relies upon unsupported assertions that are
not in evidence. This case involves matters of wellsettled law, which the lower courts applied correctly.
The Petition for Writ of Certiorari should be denied
accordingly.
SUMMARY OF THE ARGUMENT
The United States Court of Appeals for the Fifth
Circuit correctly affirmed the ALJ and the BRB in
holding that 33 U.S.C Section 933(g) bars Clarence
Simon from recovering LHWCA benefits because he
previously settled his claim with a third party without
obtaining the employer’s prior written approval. The
appellate court found no error of fact or law in the
decisions by the Administrative Law Judge (“ALJ”) and
Benefits Review Board (“BRB”) that a settlement

2
existed and that the settlement was valid based on
collateral estoppel.
The factual finding by the lower courts that
Petitioner settled without his employer’s consent is
supported by substantial evidence in the record and by
state law on settlements. The settlement itself has
been fully litigated between the parties in the United
States District Court for the Western District of
Louisiana and the U.S. Fifth Circuit Court of Appeals,
and thus collateral estoppel applies to this case. 933(g)
of the LHWCA bars Petitioner from recovering further
compensation from his former employer, and there is
no dispute among the Circuit Courts of Appeal as to the
application of this bar. All cases cited by Petitioner out
of the Ninth Circuit agree with the Fifth Circuit in
principle, and are easily distinguished on factual
grounds.
Respondents also dispute Petitioner’s assertions of
fact in his “Questions Presented” that his counsel
lacked “actual or apparent authority” to finalize a
settlement on Petitioner’s behalf. As discussed below,
this issue was already decided against Petitioner and
in favor of Respondents in the U.S. District Court and
the Fifth Circuit Court of Appeals. Respondents object
to the unsworn self-serving testimony of counsel and
request that this Court disregard it entirely.

3
REASONS FOR DENYING CERTIORARI
Petitioner’s Petition for a Writ of Certiorari should
be denied for three compelling reasons. First, there is
simply no factual dispute as to the existence of a
settlement, and there is no need for this Court to wade
through Petitioner’s blatant attempts to rehash settled
facts and previously rejected arguments. Second,
Petitioner’s assertion that there is a conflict in circuit
opinions is based entirely on a mischaracterization of
those opinions. In truth, there is no such conflict, as
each of Petitioner’s citations can easily be
distinguished on simple factual issues. Third, the Fifth
Circuit’s decision properly applied U.S.C. 933(g), which
specifically recognizes the remedy afforded to the
employer by all of the separate lower courts who have
reviewed the facts.
I. NO FACTUAL DISPUTE EXISTS AS TO THE
EXISTENCE OF A SETTLEMENT AND THE
APPLICABILITY OF 33 U.S.C. 933(g).
Petitioner’s first two questions can be restated very
simply as attempts to remix factual evidence that is
concrete in its foundation. The Benefits Review Board
and United States Fifth Circuit Court of Appeal were
bound to accept the administrative law judge’s findings
of fact and conclusions of law so long as they were
supported by substantial evidence, were rational, and
were consistent with applicable law. Mijangos v.
Avondale Shipyards, Inc., 948 F.2d 941, 944 (5th Cir.
1991); 33 U.S.C.A. § 921(b)(3). As the Mijangos court
noted, appellate review of an administrative law
judge’s findings of fact is not an exercise in engaging in
a de novo review of the evidence or to substitute its

4
views for those of the ALJ. Deference to factual review
is key.
What is that concrete foundation? The foundation
starts with a decision by the U.S. District Judge after
a contradictory hearing that Petitioner and his
attorney settled his tort claim with Tri-Drill without
the Employer’s consent, and that collateral estoppel
validated the existence of that settlement.1 The Fifth
Circuit subsequently affirmed that decision. Those
facts and that legal determination were confirmed by
the Administrative Law Judge and every court since.
Petitioner has had ample opportunity to litigate
these factual issues in the lower courts, and has shown
no factual basis to assert that Petitioner’s counsel
“lacked authority” or that Petitioner “did not accept”
the settlement. In truth, these are factual issues that
have been well settled by all of the previous courts who
have reviewed the substantial evidence that
contradicts these assertions.
Petitioner bore a heavy burden in those lower courts
to show that these decisions were not supported by
substantial evidence or that they did not exercise the
proper standard of review, and failed to meet that
burden. The Fifth Circuit and the Benefits Review
Board both correctly applied the law of review as
evidenced by Petitioner’s lack of briefing on that point.
The overwhelming evidence is crystal clear: Petitioner
entered into a settlement agreement with a third party
1

This citation was not included in petitioner’s brief, but is found
at Simon v. Longnecker Properties, No. 12-1178, 2015 WL 9482899
(W.D. LA. December 28, 2015)

5
tortfeasor that jeopardized the employer’s ability to
transfer the potential LHWCA loss.
II. THE COURT OF APPEALS DECISION DOES
NOT CONFLICT WITH THIS COURT’S
DECISIONS OR DECISIONS OF OTHER
CIRCUITS.
Petitioner understands full well that arguing for
judicial review of factual issues is a hill he will expire
upon. Instead, Petitioner claims, without support, that
this writ must be granted to correct a conflict among
the circuits, yet fails in every regard to establish any
conflict. As the United States Fifth Circuit Court of
Appeal has stated, future LHWCA benefits must be
denied an employee who fails to obtain prior consent by
his employer/carrier to the settlement of his claim
against a third party tortfeasor. There are no
exceptions to this rule: Congress enacted none, we
engraft none, and we will tolerate the engraftment of
none by the BRB in cases within our appellate
jurisdiction. Nicklos Drilling Co. v. Cowart, 907 F.2d
1552 (5th Cir. 1990).
Likewise, in each and every case cited by Petitioner,
the Ninth Circuit Court of Appeals wrestled with the
same issue, whether to bar the respective claimant’s
future Longshore claims. Petitioner first relies upon
Bethlehem Steel Corp. v. Mobley, 920 F.2d 558 (9th Cir.
1990) in a failed quest to note a conflict, calling Mobley
“similar factual circumstances.” There is nothing
“similar” about Mobley to the case sub judice. The
Ninth Circuit determined that the claimant in Mobley
timely notified the employer of his asbestos related
settlements with various tortfeasors prior to the time

6
the employer was subject to future compensation
exposure and that Mobley did not enter into a
settlement for “less than the compensation” to which he
was actually entitled. Just as the Fifth Circuit
addressed the bar to compensation as a result of
Petitioner’s actions in this case, the Ninth Circuit also
addressed the defense asserted by the employer to any
future benefits pursuant to 33(g) as a result of the
asbestos settlements.
Yet, Petitioner failed to note important distinctions.
The administrative law judge in Mobley denied
claimant indemnity benefits in the case for lack of
evidence of disability, meaning no future indemnity
was even owed to that claimant, so he never settled for
“less than” the compensation under the Act (a critical
requirement for the 33(g) bar). In contrast, Petitioner
fails to note that the administrative law judge, affirmed
by the BRB in review, specifically found that
Petitioner’s settlement with Tri-Drill was less than his
lifetime entitlement to compensation under the Act, a
factual finding not to be disturbed on review. Benefits
Review Board Opinion 17-0579, October 11, 2018, at
page 5. Thus, Mobley can be easily distinguished from
the case at bar because Mobley’s employer did not show
one critical requirement under 33(g), while Petitioner’s
employer conclusively proved that Petitioner settled
for less than the compensation under the Act.
Second, Petitioner failed to note that in the case at
bar, Petitioner’s act of settling with Tri-Drill at a
critical juncture in the tort claim (the motion for
summary judgment which dismissed Tri-Drill from the
proceeding with prejudice) affected the employer’s right

7
of recovery and/or transfer of the loss. In addition,
unlike the claimant in Mobley, Petitioner continues to
deny the existence of the settlement even after it was
confirmed by a United States District Judge after a
contradictory hearing.
In fact, Petitioner fails to note that the Benefits
Review Board found that Petitioner did not challenge:
1. The ALJ’s findings that he was a “person
entitled to compensation”;
2. The ALJ’s findings that Petitioner would be
entitled to more than $8,000 under the Act; and
3. The ALJ’s findings that Employer gave no prior
approval of the settlement between Petitioner
and Tri-Drill. BRB opinion No. 17-0579, page 7.
Thus, the BRB “affirmed these findings as
unchallenged on appeal.” BRB opinion No. 17-0579,
footnote 11. Petitioner cannot insinuate in his brief
that these are still viable issues herein.
In effect, Petitioner relies on a Ninth Circuit opinion
that a claimant settled his tort claim with no ill
effect on the employer to support his contention that
Petitioner did not settle his tort claim (which did
have an adverse effect on his employer). This is a false
comparison. There was ill effect on the employer
herein, and petitioner did in fact settle his claim.
Clearly, any reliance on Mobley in creating a “conflict”
is misplaced and misleading as nothing in the Mobley
opinion differs from Fifth Circuit jurisprudence on the
application of 33(g)’s bar.

8
Petitioner’s other citations should also be quickly
disregarded. Claimant next cites Mallott & Peterson v.
Dir. OWCP, 98 F.3d 1170 (9th Cir. 1996), overruled on
other grounds by Price v. Stevedoring Service of
America, 697 F.3d 820 (9th Cir. 2012), where the Ninth
Circuit affirmed the BRB’s finding that claimant’s
attorney was not a “representative” within the meaning
of Section 33(g). But Mallott, like Mobley, does not
create a “conflict”, and is also in harmony with the
Fifth Circuit’s opinions. Mallott recognized that a
settlement without the employer’s consent will trigger
the effects of Section 33(g). Again, the only “distinction”
is factual: the attorney for the claimant in that case
signed an unauthorized settlement under California
law. In this case, the federal district judge and the
Benefits Review Board alike took pains to examine
Louisiana law on collateral estoppel to determine that
Petitioner had, in fact, perfected a valid and binding
settlement with the third party defendant.
Thus, there is no conflict, and nothing to resolve,
because both the Ninth Circuit and Fifth Circuit agree:
lower courts ultimately look to state substantive law to
determine whether a claimant in any given tort case
has entered into a valid and binding settlement. This
is precisely what the U.S. District Court did in this
case in finding that there had been a valid and binding
settlement without the prior written consent of
Respondents. The Fifth Circuit correctly affirmed that
decision.
Next, Petitioner cites O’Neil v. Bunge Corp., 365
F.3d 820, 38 BRB 57 (CRT) (9th Cir. 2004) but fails to
state that O’Neil follows the same analysis outlined

9
above vis-a-vis the application of state law for
contractual analysis. In fact, O’Neil does not refer to
tort settlements that fall under 933(g) at all, an
important distinction that Petitioner failed to address.
In O’Neil, the Ninth Circuit noted that state law should
apply to settlements under the Act, but where the
LHWCA imposed more stringent requirements—such
as the signature requirement under 908(i)—it would
not read an exception into the rule posed by that
section.
The language cited by Petitioner is a red herring;
not only are more stringent LHWCA requirements
under 33(g) not an issue in this case, but notably, the
O’Neil decision involved a settlement between an
employer and its injured employee under Section
908(i), whereas the present litigation deals with the
implications of entering into a third-party tort
settlement without employer authorization as required
by Section 933(g). As such, the additional form
requirements of 908(i) do not apply, and O’Neil simply
does not reflect a disagreement between the circuits as
to the applicability of 33(g)’s complete bar.
Finally, we turn to Petitioner’s discussion of Hale v.
Bae Systems, 801 Fed. Appx. 600 (9th Cir. 2020). Hale
is a death benefits case with a dispute as to who were
the “representatives” (not counsel, but the actual
representatives) of the deceased in terms of the
LHWCA claim. The children of the decedents filed
separate tort suits regarding the same asbestos claims
that were present in the LHWCA claims, and settled
those claims without the employers’ (and allegedly, the

10
widows’) consent. Only the daughters signed the
settlement agreements in question.
The employer sought to make the settlements
signed by the daughters of the decedents not only
effective against the widows, but to make them
effective under 33(g) to bar recovery, since they
purportedly evidenced settlements without the
employers’ consent. As you can see, Hale is most
certainly not a case where the Ninth Circuit questioned
the validity of the Supreme Court’s decision in Nicklos
regarding forfeiture of benefits, or criticized any
decision by the Fifth Circuit on the applicability of
Louisiana law on collateral estoppel or settlements to
the 33(g) bar on recovery. Instead, the case turned on
whether the daughters were the actual representatives
of the widows (and not the decedents) under California
law.
Again, Petitioner attempts to create a sliver of a
wedge between the Circuit Court opinions where none
exists. In this case, the federal district court, the ALJ,
the BRB and the Fifth Circuit carefully examined
Louisiana law on the issues that were applicable, just
as the Ninth Circuit reviewed California law on the
issues that were applicable to Hale. There simply is no
dispute among the circuits herein.
Petitioner fails to note that the lower courts found
that counsel had authority to settle the claim on
claimant’s behalf, thus perfecting a true settlement
that triggered forfeiture of benefits under 33(g). At
every stage of the proceeding, Petitioner has made the
exact same argument, only to have it rejected time and
again after ample briefing. Any argument or claim or

11
even suggestion that the agreement is not valid as per
the Act or not enforceable under Louisiana law has
already been thoroughly considered by the lower
courts.
Ironically, Petitioner cites the very language from
the Hale opinion that dooms him. Petitioner noted that
the Hale court rejected the claim that anyone but the
claimant or his legal representative could enter
into a ‘settlement with a third person’ such that the
forfeiture provision was triggered. (Petitioner’s
petition, page 6; emphasis added). That’s exactly what
happened here. The undisputed factual determinations
of the lower courts conclusively establish that
Petitioner and his legal representative entered into this
settlement.
CONCLUSION
The Respondents long ago satisfied their burden of
proof under Section 33(g) by showing that Petitioner
(1) entered into a fully executed settlement; (2) with a
third party, Tri-Drill; (3) and did not obtain
Respondents prior written approval. There is no
conflict among the circuit courts of appeal regarding
the bar of benefits under Section 33(g), and the facts
clearly support the lower courts’ factual determination
that a settlement was reached without employer
consent as well as the application of state law on
collateral estoppel. The Petition for Writ of Certiorari
should be denied, or otherwise the Fifth Circuit ruling
should be affirmed.

12
Respectfully submitted:
Henry H. LeBas
Counsel of Record
LeBas Law Offices APLC
2 Flagg Place, Suite 1
Lafayette, LA 70508
337-236-5500
hlebas@lebaslaw.com
Counsel for Respondents,
Longnecker Properties, Inc. and
SeaBright Insurance Company
March 24, 2021

